Case 19-2644, Document 15, 09/05/2019, 2648015, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
5th day of September, two thousand and nineteen.

United States of America,
ORDER
Appellee,
Docket No. 19-2644
v.
Jimel Frank, AKA 30, AKA Velly,
Defendant,
Karl Roye, AKA Eagle,
Defendant - Appellant.

Christopher Duby moves to be relieved as counsel for the Appellant.
IT IS HEREBY ORDERED that the motion to be relieved is GRANTED. Michelle
Anderson Barth, Law Office of Michelle Anderson Barth, P.O. Box 4240, Burlington, VT
05406, is assigned as new counsel pursuant to the Criminal Justice Act, 18 U.S.C. ยง3006A.
Attorney Barth is directed to review Local Rule 12.2 regarding the filing of Form B and Local
Rule 31.2 regarding procedures for setting the filing dates for the submission of briefs.

For the Court:
Catherine O'Hagan Wolfe,
Clerk of Court

